HHS/OIG, Audit -"Review of Nonqualified Defined-Benefit Pension Plan Costs Claimed by Highmark, Inc. for Fiscal Years 1998 Through 2002,"(A-07-06-00202)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nonqualified Defined-Benefit
Pension Plan Costs Claimed by Highmark, Inc. for Fiscal Years 1998 Through 2002," (A-07-06-00202)
January 20, 2006
Complete
Text of Report is available in PDF format (308 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of nonqualified defined-benefit pension
plan (NQDBP) costs Highmark claimed for Medicare reimbursement for fiscal years (FY) 1998
through 2002. Highmark claimed $122,780 of unallowable NQDBP costs for FYs 1998 through 2002
because it did not update the Medicare segment assets in accordance with the Medicare contract,
which resulted in a difference in allocable pension costs. During FYs 1998 through 2002,
the allowable NQDBP costs were $667,902; however, Highmark claimed NQDBP costs of $790,682
for Medicare reimbursement. We recommended that Highmark revise its Final Administrative
Cost Proposals (FACP) for FYs 1998 through 2002 to reduce its claimed NQDBP costs by $122,780.
Highmark agreed with our recommendation.